                                                    U.S. Department of Justice


                                                    United States Attorney
                                                    District of Maryland

                                                                                                   Rod J.
Rosenstein                                          36 S. Charles Street                         410-209-4800
United States Attorney                              Fourth Floor                       TTY/TDD:410-962-4462
                                                    Baltimore, Maryland 21201-2692               410-209-4885
Vickie E. LeDuc                                                                              FAX 410-962-3091
Public Information Officer                                                             Vickie.LeDuc@usdoj.gov


June 11, 2009
FOR IMMEDIATE RELEASE
http://www.usdoj.gov/usao/md                        CONTACT AUSA VICKIE E. LEDUC or
                                                    MARCIA MURPHY at (410) 209-4885

CONSPIRATOR SENTENCED IN SCHEME TO CASH OVER $100,000 IN TREASURY
                 CHECKS STOLEN FROM THE MAIL

        Baltimore, Maryland - U.S. District Judge Catherine C. Blake sentenced Derrick Taylor,
age 43, of Baltimore, today to 51 months in prison, followed by three years of supervised
release, for conspiracy to commit mail fraud and aggravated identity theft, in connection with a
scheme to steal treasury checks from the mail and cash the checks using false identity
documents, announced United States Attorney for the District of Maryland Rod J. Rosenstein.
Judge Blake also ordered Taylor to pay restitution of $104,446.35.

        According to Taylor’s plea agreement, beginning in April 2006, and continuing until
May 2007, Taylor was involved in a scheme to take United States Treasury checks from the
mail and, using fraudulent identification documents, cash those checks at local check cashing
establishments by posing as the intended recipient of the check. As his part of the scheme,
Taylor assisted in providing fake Maryland Drivers Licenses for use by other members of the
conspiracy who cashed stolen Treasury checks, each fake license bearing the photograph of the
co-conspirator who was cashing a stolen Treasury check and the name and address of the
intended recipient of the stolen Treasury check. Taylor acted as a middleman: receiving orders
for the fraudulent identification documents and providing those orders to the document producer;
taking the completed fraudulent identification documents and delivering them to the person who
had placed the order; and collecting the payment for the documents and providing the payment to
the individual who provided the fake documents. Taylor also assisted in getting checks cashed,
either by finding someone to cash the checks, assisting in getting their photograph for the
fraudulent identification document, or by accompanying them to the location where they would
attempt to negotiate the stolen Treasury check.

      Over the course of the scheme Taylor and the other members of the scheme cashed over
$100,000 in stolen United States Treasury checks.

       United States Attorney Rod J. Rosenstein thanked the U.S. Postal Inspection Service; the
U.S. Postal Service, Office of Inspector General; the U.S. Secret Service; the Department of
Transportation - Office of Inspector General; and the U.S. Department of the Treasury, Office of
Inspector General for their investigative work. Mr. Rosenstein commended Assistant United
States Attorneys Tamera L. Fine and Emily Glatfelter, who are prosecuting the case.
